                                               OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0
              Reporting Entity: Amtrak - OIG
            Month Ending Date: 09/30/2009

                                                Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau          Recovery Act TAFS         Obligation Type   US Indicator        State Code    Total Obligations   Total Gross
                                                                                                 (ONLY for grants                       Outlays
                                                                                                  and cooperative
                                                                                                   agreements)
No.
      Amtrak - OIG              (69-0724 2009 \ 2013)             Other            Y - US                             $146,420         $89,389
                                Amtrak - OIG - Recovery Act
  1
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                      Non-Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau        Non-Recovery Act TAFS       Total FY 2009     Total FY 2009     Total FY 2010    Total FY 2010
No.                                                            Obligations      Gross Outlays      Obligations     Gross Outlays
  1 Amtrak - OIG                Amtrak - OIG                         $186,105         $214,470
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                                                         Amtrak OIG Sept 2009 100709
